No. 19-1173
IN THE

Supreme Court of the United States
COMCAST CORPORATION, et al.,
Petitioners,
v.
INTERNATIONAL TRADE COMMISSION, et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
BRIEF OF THE R STREET INSTITUTE, THE
INNOVATION DEFENSE FOUNDATION, LINCOLN
NETWORK, AND THE ELECTRONIC FRONTIER
FOUNDATION AS AMICI CURIAE IN SUPPORT OF
THE PETITION
J. SCOTT MCKAIG
LINCOLN NETWORK
44 Tehama St
San Francisco, CA 94105

CHARLES DUAN
Counsel of Record
K. WILLIAM WATSON
R STREET INSTITUTE
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org

Counsel for amici curiae

TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

The International Trade Commission’s Decision
Subjects Numerous American Businesses to Costly,
Duplicative, and Unbalanced Patent Litigation . . . . 5
A. By Expanding Its Trade Authority to Reach
Non-Trade Disputes, the ITC’s Ambit Now
Reaches a Wide Range of Domestic Firms . . . . 5
B.

ITC Patent Infringement Adjudication, when
Against American Firms, Is Unfair and Imposes Redundant and Unnecessary Costs . . . . . 8

II. The Petition Implicates Exceptionally Important
Questions About Separation of Powers and Agency
Statutory Interpretation . . . . . . . . . . . . . . . . . 12
A. Adjudication of Domestic Patent Infringement
in a Federal Agency Intrudes upon Article III;
Oil States Does Not Cure This Defect . . . . . . . 12
B.

The ITC’s Expansive Interpretation of Its
Statutory Jurisdiction, and Deference to That
Interpretation, Are Highly Suspect . . . . . . . . 15

C.

Left Unreviewed, the ITC’s Enlarged Authority Will Be a Roadmap for Other Agency Enhancement of Power . . . . . . . . . . . . . . . . . 18

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . 21

(i)

TABLE OF AUTHORITIES
CASES AND ADMINISTRATIVE DECISION
Bowman v. Monsanto Co.,
569 U.S. 278 (2013) . . . . . . . . . . . . . . . . . . . . . . 8
Certain Road Construction Machines, In re,
Inv. No. 337-TA-1088 (Jan. 31, 2020) . . . . . . . . . . . 11
Chevron U.S.A., Inc.
v. Natural Resources Defense Council, Inc.,
467 U.S. 837 (1984) . . . . . . . . . . . . . . . . . . . . 16–19
City of Arlington
v. Federal Communications Commission,
569 U.S. 290 (2013) . . . . . . . . . . . . . . . . . . . . 17–18
ClearCorrect Operating, LLC
v. International Trade Commission,
810 F.3d 1283 (Fed. Cir. 2015) . . . . . . . . . . . . . . . 19
Crowell v. Benson,
285 U.S. 22 (1932) . . . . . . . . . . . . . . . . . . . . . . 13
Cunard Steamship Co. v. Mellon,
262 U.S. 100 (1923) . . . . . . . . . . . . . . . . . . . . . . 17
eBay Inc. v. MercExchange, LLC,
547 U.S. 388 (2006) . . . . . . . . . . . . . . . . . . . . 9–10
Free Enterprise Fund
v. Public Co. Accounting Oversight Board,
561 U.S. 477 (2010) . . . . . . . . . . . . . . . . . . . . . . 20
Frischer & Co. v. Bakelite Corp.,
39 F.2d 247 (C.C.P.A. 1930) . . . . . . . . . . . . . . . . . 15
Golden v. United States,
No. 19-2134 (Fed. Cir. Apr. 10, 2020) . . . . . . . . . . . 14

(ii)

(iii)
Murray’s Lessee v. Hoboken Land & Improvement Co.,
59 U.S. (18 How.) 272 (1855) . . . . . . . . . . . . . . . . 13
Northern Pipeline Construction Co.
v. Marathon Pipe Line Co.,
458 U.S. 50 (1982) . . . . . . . . . . . . . . . . . . . . . . 13
Oil States Energy Services, LLC
v. Greene’s Energy Group, LLC,
138 S. Ct. 1365 (2018) . . . . . . . . . . . . . . . . . . . . 14
Schillinger v. United States,
155 U.S. 163 (1894) . . . . . . . . . . . . . . . . . . . . . . 14
Spansion, Inc. v. International Trade Commission,
629 F.3d 1331 (Fed. Cir. 2010) . . . . . . . . . . . . . . . 10
Stern v. Marshall,
564 U.S. 462 (2011) . . . . . . . . . . . . . . . . . . . . . . 13
Suprema, Inc. v. International Trade Commission,
796 F.3d 1338 (Fed. Cir. 2015) (en banc) . . . . . . . . 16–17
TC Heartland, LLC v. Kraft Foods Group Brands LLC,
137 S. Ct. 1514 (2017) . . . . . . . . . . . . . . . . . . . . 11
Texas Instruments Inc. v. Tessera, Inc.,
231 F.3d 1325 (Fed. Cir. 2000) . . . . . . . . . . . . . . . 11
Thomas v. Union Carbide Agricultural Products Co.,
473 U.S. 568 (1985) . . . . . . . . . . . . . . . . . . . . . . 13
Wellness International Network, Ltd. v. Sharif,
135 S. Ct. 1932 (2015) . . . . . . . . . . . . . . . . . . . . 13
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. 7 . . . . . . . . . . . . . . . . . . . . . . 9
——— Art. I . . . . . . . . . . . . . . . . . . . . . . 13, 20

(iv)
U.S. Const. Art. III . . . . . . . . . . . . . 4–5, 9, 12–14, 19–20
STATUTES AND REGULATIONS
19 C.F.R. § 201.3 . . . . . . . . . . . . . . . . . . . . . . . . . 10
——— § 210.10(b)(2)–(3) . . . . . . . . . . . . . . . . . . . 9
19 U.S.C. § 1330(b), (c)(3) . . . . . . . . . . . . . . . . . . . . 9
28 U.S.C. § 1400(b) . . . . . . . . . . . . . . . . . . . . . . . . 10
35 U.S.C. § 281 . . . . . . . . . . . . . . . . . . . . . . . . . . 8
——— §§ 283–284 . . . . . . . . . . . . . . . . . . . . . . . 9
——— § 299 . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Omnibus Trade and Competitiveness Act of 1988, Pub.
L. No. 100-418, 102 Stat. 1107 . . . . . . . . . . . . . 8, 15
Patent Act of 1790, ch. 7, 1 Stat. 109 . . . . . . . . . . . . . 13
Smoot–Hawley Tariff Act of 1930, Pub. L. No. 71-361, 46
Stat. 590 . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Tariff Act of 1930 § 337,
19 U.S.C. § 1337 (as amended) . . . . . . . 6, 15–16, 18–19
——— § 337(a)(1)(B)(i) (as amended) . . . . . . . . . . 6
——— § 337(c) (as amended) . . . . . . . . . . . . . . . 9
——— § 337(d)(1) (as amended) . . . . . . . . . . . 6, 10
——— § 337(d)–(f) (as amended) . . . . . . . . . . . . . 14
OTHER SOURCES
Am. Intellectual Prop. Law Ass’n, Report of the Economic Survey (2019) . . . . . . . . . . . . . . . . . . . . 11

(v)
Colleen V. Chien & Mark A. Lemley, Patent Holdup, the
ITC, and the Public Interest, 98 Cornell L. Rev. 1
(2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Copyright Alternative in Small-Claims Enforcement
Act of 2019, H.R. 2426, 116th Cong. (as passed by
House of Representatives, Oct. 22, 2019) . . . . . . . . . 20
James M. de Vault, Congressional Dominance and the
International Trade Commission, 110 Pub. Choice 1
(2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Exclusion Orders, Customs Directive No. 2310-006A
(U.S. Customs Serv. Dec. 16, 1999), https://www.cbp.
gov/sites/default/files/documents/2310-006a_3.pdf . . . . 6
Adam R. Hess & Catherine S. Branch, Court: ITC
Can Grant Injunctive Relief in Patent Disputes
Without Using eBay Factors, Client Alert (Pillsbury
Winthrop Shaw Pittman LLP Jan. 5, 2011) . . . . . . . 10
Sapna Kumar, The Other Patent Agency: Congressional
Regulation of the ITC, 61 Fla. L. Rev. 529 (2009) . . 11, 18
Anthony Marcum, Potential Pitfalls of the CASE Act, R
Street (July 16, 2019) . . . . . . . . . . . . . . . . . . . . 20
Nat’l Research Council, Surviving Supply Chain
Integration: Strategies for Small Manufacturers
(2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Omnibus Trade Act of 1987, Senate Report No. 100-71
(1987), https://www.finance.senate.gov/imo/media/
doc/srpt100-71.pdf . . . . . . . . . . . . . . . . . . . . . . 6
John F. Rabena & Kim E. Choate, Injunctive Relief in
the ITC Post eBay, 1 Akron Intell. Prop. J. 27 (2007) . . 10
Pamela Samuelson & Kathryn Hashimoto, Scholarly
Concerns About a Proposed Copyright Small Claims
Tribunal, 33 Berkeley Tech. L.J. 689 (2019) . . . . . . . 20

(vi)
Christopher B. Seaman, Permanent Injunctions in
Patent Litigation After eBay: An Empirical Study,
101 Iowa L. Rev. 1949 (2016) . . . . . . . . . . . . . . . . 9
Senate Report No. 67-595 (1922), https://www.finance.
senate.gov/imo/media/doc/RPT67-595.pdf . . . . 15–16, 19
U.S. Int’l Trade Comm’n, Budget Justification, Fiscal
Year 2012 (2011), https://usitc.gov/press_room/
documents/budget_2012.pdf . . . . . . . . . . . . . . . . 19
———, Budget Justification, Fiscal Year 2021 (2020),
https://usitc.gov/documents/consolidated_fy2021_
cbj_v6-508_compliant.pdf . . . . . . . . . . . . . . . . . . 19
U.S. Tariff Comm’n, Dictionary of Tariff Information
(1924) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Robert J. Walters & Yefat Levy, An Introduction To
Remedies and Enforcement Proceedings in Section
337 Investigations at the International Trade
Commission, Intell. Prop. Owners Ass’n . . . . . . . . . 10
Bill Watson, R Street Short No. 57, Preserving the Role
of the Courts Through ITC Patent Reform (2018) . . . . 12
———, The ITC in 2019: America’s Administrative
Patent Court, ITC Pol’y Project (Feb. 24, 2020) . . . . . 9

In the Supreme Court of the United States
No. 19-1173
COMCAST CORPORATION, et al.,
Petitioners,
v.
INTERNATIONAL TRADE COMMISSION, et al.,
Respondents.

BRIEF OF THE R STREET INSTITUTE, THE
INNOVATION DEFENSE FOUNDATION,
LINCOLN NETWORK, AND THE
ELECTRONIC FRONTIER FOUNDATION AS
AMICI CURIAE IN SUPPORT OF THE
PETITION

INTEREST OF AMICI CURIAE
The R Street Institute1 is a nonprofit, nonpartisan
public-policy research organization. R Street’s mission
is to engage in policy research and educational outreach
that promotes free markets as well as limited yet effective government, including properly calibrated legal and
1

Pursuant to Supreme Court Rule 37.2(a), all parties received appropriate notice of and consented to the filing of this brief. Pursuant
to Rule 37.6, no counsel for a party authored this brief in whole or
in part, and no counsel or party made a monetary contribution intended to fund the preparation or submission of the brief. No person
or entity, other than amici, their members, or their counsel, made a
monetary contribution to the preparation or submission of this brief.

1

2
regulatory frameworks that support economic growth
and individual liberty.
The Innovation Defense Foundation is a project of the
Method Foundation, which is a nonprofit, nonpartisan research and issue-advocacy institution that advocates for
“permissionless innovation,” seeking to repeal, relax, or
replace unnecessary regulations that stand in the way of
innovation. Through a combination of research, advocacy,
and regulatory filings, the IDF pushes back against riskaverse, regressive, and precautionary policies that both
threaten America’s innovators and limit our society’s ability to cope with new and existing challenges.
Lincoln Network is a nonprofit organization that
seeks to bridge the often siloed discussions between policy makers in Washington, D.C. and technologists in Silicon Valley so as to advance smart policy that encourages
innovation. The organization regularly hosts policy panels, hackathons, and conferences convening influencers
and technologists to address challenges facing political institutions and the nation.
The Electronic Frontier Foundation is a nonprofit
civil liberties organization that has worked for more than
25 years to protect innovation, free expression, and civil
liberties in the digital world. EFF and its more than
30,000 active donors have a powerful interest in ensuring
that intellectual property laws serve the general public
by promoting more creativity and innovation than they
deter.

SUMMARY OF ARGUMENT
Can a federal trade agency that deals with the importation of patent-infringing goods assert jurisdiction over
companies that import nothing and products that infringe
no patents? This remarkable situation was the result of an
expansive interpretation of regulatory authority by the
respondent agency, the U.S. International Trade Commission. Such interpretation warrants reconsideration on
a grant of certiorari, both because of the dramatic impact
on American businesses that the ITC’s newfound power
may have and because of the especially important constitutional and administrative law questions it raises.
I. By claiming jurisdiction over non-trade patent disputes, the ITC imposes large and duplicative costs of
litigation on a wide swath of American businesses. The
facts of the present case are instructive: Petitioner Comcast imports no products from abroad, and its supposedly
patent-infringing technology is a computer network system run entirely within the United States. There was no
reason for Comcast to find itself before an international
trade agency, yet the ITC found jurisdiction over Comcast through convoluted interpretation of the agency’s
statutory authority. That interpretation could equally apply to other communications services, Internet companies, domestic manufacturers, farmers, and small business enterprises.
All these enterprises would be subjected to litigation
before the ITC that is costly, duplicative, and unfair. Because an American company that finds itself in the ITC
can also be sued in federal district court, the company potentially must, and frequently does, pay the costs of two
legal defenses. These companies are also subjected to an
administrative forum that lacks the protections and inde3

4
pendence of an Article III court, that applies different
patent law that tends to favor patent holders, that disregards this Court’s precedents on patent injunctions, and
that recreates the forum shopping problems that both
Congress and this Court have sought to avoid. It is questionable whether businesses engaged in foreign importation should be subjected to these inequities in an administrative trade tribunal; it is astonishing that even companies not involved in trade will be subjected to them too.
II. In addition to their importance to American businesses and the structure of patent litigation, the questions presented implicate at least two especially pressing questions of the constitutional structure of the federal government. First, by adjudicating domestic patent
infringement disputes in an independent agency, the ITC
steps into a role that ought to be the exclusive province of
the Article III judiciary. Patent infringement by domestic firms has always been remediable in district court, and
it ignores separation of powers to have an administrative
agency conduct such proceedings untethered to importation. Second, the ITC’s expansive interpretation of its jurisdictional statute, without any clear grant of rulemaking authority, does not merit the level of deference that
the Federal Circuit has given the agency so far. The especially strained reading of the ITC’s jurisdictional limits in
this case highlights the risks of leaving agencies to police
the scope of their own authority.
Left uncorrected, the ITC’s expansion of authority—
stretching beyond a statutory trade focus to reach domestic patent disputes hardly related to trade—will set a
precedent for enlarged administrative power for not just
the ITC itself but also the whole of the federal government. The present decision is just one step, albeit a large

5
one, toward the ITC’s longstanding project of shedding
its statutory trade role and becoming a general-purpose
patent tribunal, and lawmakers are already looking to create new administrative courts to replace Article III adjudication. These rapid developments of administrative
expansion demand this Court’s imminent attention. Certiorari should be granted.
ARGUMENT
I.

THE INTERNATIONAL TRADE COMMISSION’S
DECISION SUBJECTS NUMEROUS AMERICAN
BUSINESSES TO COSTLY, DUPLICATIVE, AND
UNBALANCED PATENT LITIGATION

The ITC’s expansive interpretation of its statutory
authority, going well beyond the international trade context that Congress carved out for the agency, will force
a wide range of domestic businesses uninvolved with importation to face costly trials before an administrative
agency. This result is especially concerning given that
ITC litigation is frequently duplicative, with companies
defending themselves simultaneously in both courts and
the agency, often on the same charges of patent infringement.
A.

BY EXPANDING ITS TRADE AUTHORITY TO
REACH NON-TRADE DISPUTES, THE ITC’S
AMBIT NOW REACHES A WIDE RANGE OF
DOMESTIC FIRMS

Few industries would be outside the reach of the ITC
under the agency’s interpretation of its jurisdiction in this
case. That result is especially surprising given that the
ITC, by definition, deals only with international trade and

6
importation of goods, and yet can now hear disputes involving purely domestic service providers.
By name and by statute, the International Trade Commission’s jurisdiction is international trade. Section 337
of the Tariff Act of 1930 gives the ITC authority to deal
with “importation into the United States . . . by the owner,
importer, or consignee, of articles that infringe a valid
and enforceable United States patent.” Tariff Act of 1930
§ 337(a)(1)(B)(i), 19 U.S.C. § 1337 (as amended) (internal
numbering omitted). Upon finding a violation, the ITC
may “direct that the articles concerned, imported by any
person violating the provision of this section, be excluded
from entry into the United States.” Tariff Act § 337(d)(1).
The violation is enforced by Customs and Border Patrol.
See id.; Exclusion Orders, Customs Directive No. 2310006A, § 4, at 2 (U.S. Customs Serv. Dec. 16, 1999), available online.2 Legislative history further confirms that the
ITC’s raison d’être is “to adjudicate trade disputes between U.S. industries and those who seek to import goods
from abroad.” Omnibus Trade Act of 1987, S. Rep. No.
100-71, at 129 (1987), available online. “Importation” and
“importers” are thus central to and ubiquitous throughout the ITC’s authorizing statute.
Yet the ITC has contorted this statutory authority to
reach domestic firms and activity hardly linked to importation or trade. Petitioner Comcast, the defending party
in the ITC, provides communications services within the
United States. It imports no goods but rather buys them
from third-party sellers. Pet. App. 85–89a. The allegedly
patent-infringing instrumentality was a domestic computer network system; the imported set-top boxes that
2

Locations of authorities available online are shown in the Table
of Authorities.

7
were the subject of the ITC investigation were staple articles that did not even contain the key components necessary to infringe the patents, and fewer than 1 percent
of set-top boxes were ever used in an infringing manner.
See id. at 3–5a, 406–407a. Nevertheless, the ITC issued
an exclusion order against all of Comcast’s set-top boxes,
by holding that (1) Comcast was an “importer” because
Comcast had ordered and set the specifications for the
set-top boxes that were imported; and (2) because the settop boxes could be used eventually as part of Comcast’s
infringing network system, they counted as “articles that
infringe” patents. See id. at 41–42a.
Those two lines of reasoning apply to virtually every
American business enterprise, even ones distant from
international trade. The nature of global supply chains
means that even the most home-grown business will
likely contract for at least some imported parts or goods
that might find their way into an infringing product or
service. See Nat’l Research Council, Surviving Supply
Chain Integration: Strategies for Small Manufacturers
89 (2000). Under the ITC’s analysis, that company would
be an importer of articles and subject to the ITC’s jurisdiction.
As a result, diverse companies now fall within the
ITC’s grasp. Like Comcast, many domestic communications providers and Internet platforms buy network
and computer equipment for business use, enabling the
ITC to adjudicate software and business method patents
against those non-importer companies. American manufacturers will likely use some imported parts. A farm
that sells only crops that it grows—as far as possible
from an importation business—could be haled before the
ITC for planting patent-infringing soybeans, if it plants

8
them with fertilizer or tools that originated from abroad.
Cf. Bowman v. Monsanto Co., 569 U.S. 278, 289 (2013).
The size of the business would seem to make no difference: A one-person furniture-making shop that uses only
American lumber might nevertheless be deemed an “importer” involved in “international trade” for buying imported glue or saws.
In none of these cases is the ITC’s long-arm reach
to domestic American industries necessary to prosecute
infringement of patents—American companies may be
sued in federal courts, and any infringement may be remedied there. See 35 U.S.C. § 281. The traditional justification for the ITC, that it provides patent holders with
“adequate protection against foreign companies violating
such rights,” is irrelevant when the alleged infringer is
a non-importing American business. See Omnibus Trade
and Competitiveness Act of 1988, Pub. L. No. 100-418,
sec. 1341(a)(2), 102 Stat. 1107, 1212. The question is which
of those American non-importing businesses should be
doubly subject to suit in a trade agency. Under the ITC’s
interpretation of its own jurisdiction, it is a large number
of them.
B.

ITC PATENT INFRINGEMENT ADJUDICATION,
WHEN AGAINST AMERICAN FIRMS, IS
UNFAIR AND IMPOSES REDUNDANT AND
UNNECESSARY COSTS

Opening the doors of the ITC to domestic patent disputes will likely attract a great deal of litigation and
force many of the above-discussed American businesses
to navigate the federal trade bureaucracy. The ITC is already a popular forum for patent disputes, hearing about
49 cases per year and conducting roughly 10–20 percent

9
of all patent trials in the United States. See Bill Watson, The ITC in 2019: America’s Administrative Patent
Court, ITC Pol’y Project (Feb. 24, 2020). This number will
likely grow as the ITC relaxes its jurisdictional limitations because, compared to the district courts, the agency
offers different procedures and remedies that tend to favor patent holders and burden defending parties haled before the agency.
The right to an independent adjudicator and a trial by
jury are lost in the ITC. Article III provides judges with
life tenure to ensure their independence; ITC commissioners have a small amount of tenure, being heads of an
independent agency, but they still lack life tenure or guaranteed salaries. See 19 U.S.C. § 1330(b), (c)(3). Indeed,
Congress may exercise extensive control over the ITC
through appropriations and legislation. See James M. de
Vault, Congressional Dominance and the International
Trade Commission, 110 Pub. Choice 1, 5 (2002). The Seventh Amendment guarantees patent infringement defendants a right to trial by jury, but ITC investigations are
heard only by an administrative law judge and the commissioners of the agency. See Tariff Act § 337(c); 19 C.F.R.
§ 210.10(b)(2)–(3).
Remedies also differ starkly. In district court, both
injunctions and monetary damages are available, see 35
U.S.C. §§ 283–284, but injunctive relief requires consideration of “the traditional four-factor framework that governs the award of injunctive relief” under this Court’s decision in eBay Inc. v. MercExchange, LLC. 547 U.S. 388,
394 (2006). Since eBay, injunctions on patents, while still
frequently granted, are not universal. See Christopher B.
Seaman, Permanent Injunctions in Patent Litigation Af-

10
ter eBay: An Empirical Study, 101 Iowa L. Rev. 1949,
1982–84 (2016).
By contrast, the ITC does not apply eBay at all. See
Spansion, Inc. v. Int’l Trade Comm’n, 629 F.3d 1331, 1359
(Fed. Cir. 2010). The agency does consider a “public interest” test before issuing an exclusion order, see Tariff Act
§ 337(d)(1), but that test is narrower than eBay—“public
interest” is just one of the four factors—and unlike the
frequent denials of injunctions under eBay, the ITC has
not rejected an exclusion order since 1984. See Colleen V.
Chien & Mark A. Lemley, Patent Holdup, the ITC, and
the Public Interest, 98 Cornell L. Rev. 1, 19–23 (2012).
This discrepancy has led patent attorneys baldly and
publicly to advise using the ITC to circumvent eBay.3 The
notion that litigants can use an administrative tribunal to
“circumvent” law set forth by this Court is jarring at a
minimum.
Further differences relate to procedure. In district
court patent litigation, 28 U.S.C. § 1400(b) sharply limits
venue to a handful of ones convenient to the party defending, but when an action is brought in the ITC, the defending party must appear in the agency’s single headquarters office. See 19 C.F.R. § 201.3. The ITC thus enables
3

See Chien & Lemley, supra, at 18 (observing this phenomenon);
Adam R. Hess & Catherine S. Branch, Court: ITC Can Grant Injunctive Relief in Patent Disputes Without Using eBay Factors, Client
Alert 2 (Pillsbury Winthrop Shaw Pittman LLP Jan. 5, 2011); John
F. Rabena & Kim E. Choate, Injunctive Relief in the ITC Post eBay,
1 Akron Intell. Prop. J. 27, 34 (2007) (“[T]he ITC is likely to become
even more popular for patent owners”); Robert J. Walters & Yefat
Levy, An Introduction To Remedies and Enforcement Proceedings
in Section 337 Investigations at the International Trade Commission, Intell. Prop. Owners Ass’n 1 (describing ITC as “an appealing
alternative to the relief available in U.S. District Courts”).

11
the sort of forum shopping that is now unavailable in district courts following TC Heartland, LLC v. Kraft Foods
Group Brands LLC, 137 S. Ct. 1514, 1521 (2017). And ITC
litigation is not subject to the limits on joinder of unrelated parties in a single action imposed by the America
Invents Act. See 35 U.S.C. § 299.
Additionally, unlike district courts, the ITC as a rule
refuses to stay its proceedings while the asserted patents
are being challenged for validity before the Patent Trial
and Appeal Board. See, e.g., In re Certain Rd. Constr.
Machs., Inv. No. 337-TA-1088, at 5–6 (Jan. 31, 2020). As
a result, the agency has issued and enforced exclusion orders based on patent claims concurrently deemed erroneous. In a recent example, the ITC is currently enforcing an exclusion order, despite a final written decision of
unpatentability having already issued. See id.
Imbalances and discrepancies between the ITC and
judiciary are compounded by the fact that the forums are
not mutually exclusive: A patent holder is free to bring simultaneous litigation in both, on identical subject matter.
See Tex. Instruments Inc. v. Tessera, Inc., 231 F.3d 1325,
1330 (Fed. Cir. 2000); Sapna Kumar, The Other Patent
Agency: Congressional Regulation of the ITC, 61 Fla. L.
Rev. 529, 538–40 (2009). This is costly to defending parties that now must pay attorney fees twice over to resolve
the same issue. ITC litigation costs over twice as much as
comparable district court litigation: A median patent infringement case with $1–10 million at stake costs $1.5 million in district court, and $4 million in the ITC. See Am. Intellectual Prop. Law Ass’n, Report of the Economic Survey 50, 52 (2019). And redundant dispute resolution in
two branches of government heightens the specter of forum shopping, abusive litigation, duplicative recoveries,

12
and conflicting judgments. See generally Bill Watson, R
Street Short No. 57, Preserving the Role of the Courts
Through ITC Patent Reform 2–3 (2018).
This catalog of differences between the ITC and district court litigation shows that it is no mere academic
question whether to house patent litigation in an administrative agency along with the judiciary; the ITC strips
away many safeguards for defending parties and opens
them up to costly, duplicative litigation. The impact of the
ITC’s expansion of its own authority will be felt widely
across the nation, rendering the propriety of that expansion a matter of exceptional importance warranting review on a writ of certiorari.
II.

THE PETITION IMPLICATES EXCEPTIONALLY
IMPORTANT QUESTIONS ABOUT SEPARATION
OF POWERS AND AGENCY STATUTORY
INTERPRETATION

The questions presented raise two issues that have
been of great concern to this Court: the relationship between administrative agencies and the judicial power
under Article III, and judicial deference to agency selfinterpretations of statutory authority.
A.

ADJUDICATION OF DOMESTIC PATENT
INFRINGEMENT IN A FEDERAL AGENCY
INTRUDES UPON ARTICLE III; OIL STATES
DOES NOT CURE THIS DEFECT

The ITC’s adjudication of domestic patent infringement challenges the basic constitutional allocation of the
“judicial Power of the United States.” U.S. Const. Art. III.
Under the separation of powers doctrine, courts must be

13
the sole locus of deciding private rights and responsibilities under the law, and no other branch of government
may not encroach upon that Article III power except
within a narrow class of “matters involving public rights.”
Murray’s Lessee v. Hoboken Land & Improvement Co.,
59 U.S. (18 How.) 272, 284 (1855) (comma omitted).
This Court has vigilantly policed the exclusive domain
of Article III, as “[p]reserving the separation of powers is one of this Court’s most weighty responsibilities.”
Wellness Int’l Network, Ltd. v. Sharif, 135 S. Ct. 1932,
1954 (2015) (Roberts, C.J., dissenting). In Stern v. Marshall, the Court invalidated the authority of Article I
bankruptcy courts to hear counterclaims to bankruptcy
proceedings, holding that those counterclaims constituted generalized dispute resolution and thus had to be
heard in Article III courts. See 564 U.S. 462, 503 (2011).
Administrative agencies may resolve disputes only relating to “public rights,” which the Court has generally
defined as nontraditional statutory schemes of Congress
that involve “matters arising between the government
and persons subject to its authority.” N. Pipeline Constr.
Co. v. Marathon Pipe Line Co., 458 U.S. 50, 67–68 (1982)
(plurality op.) (quoting Crowell v. Benson, 285 U.S. 22, 50
(1932) (quotations omitted)); Thomas v. Union Carbide
Agric. Prods. Co., 473 U.S. 568, 589 (1985) (permitting administrative arbitration as part of a “complex regulatory
scheme” of pesticide approval).
ITC adjudication of domestic patent disputes under
its newly minted authority is much like counterclaims in
the bankruptcy courts of Stern. Patent disputes are traditional adjudication over private rights and responsibilities, dating back to at least the founding of the nation.
See Patent Act of 1790, ch. 7, § 4, 1 Stat. 109. A patent in-

14
fringement action “is one sounding in tort.” Schillinger v.
United States, 155 U.S. 163, 169 (1894); see Golden v.
United States, No. 19-2134, slip op. at 11 (Fed. Cir. Apr.
10, 2020). The ITC’s exclusionary remedies can deny parties the right to engage in business and to use their personal property by importing it into the United States.
See Tariff Act § 337(d)–(f). These factors strongly suggest
that patent infringement is not a matter of public rights,
leaving ITC adjudication of domestic patent disputes constitutionally suspect.
This Court’s recent decision in Oil States Energy Services, LLC v. Greene’s Energy Group, LLC is not to the
contrary. There, an administrative procedure for reconsidering the validity of patent grants was deemed a matter of public rights, on the grounds that patent grants are
“franchises that can be qualified” by Congress with conditions including administrative validity review. See 138 S.
Ct. 1365, 1375 (2018). Oil States specifically reserved the
question of whether “infringement actions can be heard
in a non-Article III forum.” Id. at 1379 (comma omitted).
And the distinction between patent validity and infringement actions with respect to Article III is plain when one
considers what is at stake in each. In a patent validity proceeding, the most that can be lost is the legislatively qualified franchise of a patent. By contrast, an infringement
action puts at stake a party’s money, business, and personal property—rights that the Constitution specifically
protects through institutions such as Article III courts.
This is not to say that the ITC as a general matter
violates Article III. Where a patent infringement case is
closely tied to acts of importation and international trade,
the public rights doctrine may be applicable insofar as importation and trade are federal policy matters. The only

15
issue presented here is whether domestic patent disputes
with only tenuous connections to importation are within
the realm of an administrative tribunal; in view of separation of powers, that question carries importance of constitutional dimensions.
B.

THE ITC’S EXPANSIVE INTERPRETATION
OF ITS STATUTORY JURISDICTION, AND
DEFERENCE TO THAT INTERPRETATION, ARE
HIGHLY SUSPECT

A second important question arising from the ITC’s
decision is the propriety of its interpretation of its authorizing statute, particularly in a manner that greatly expands the agency’s authority.
As discussed above, the ITC’s statutory purpose has
always been trade, not patents. See supra p. 6. Indeed,
when it was first enacted as part of the Smoot–Hawley
Tariff Act of 1930, section 337 made no mention of patents,
instead broadly prohibiting all “unfair methods of competition and unfair acts in the importation of articles . . . the
effect or tendency of which is to destroy or substantially
injure an industry, efficiently and economically operated,
in the United States.” Pub. L. No. 71-361, sec. 337(a), 46
Stat. 590, 703. The law was meant to be an all-purpose,
protectionist trade remedy that could provide “more adequate protection to American industry than any antidumping statute the country has ever had.” S. Rep. No. 67595, at 3 (1922), available online; Frischer & Co. v. Bakelite Corp., 39 F.2d 247, 257 (C.C.P.A. 1930). Patents specifically appear in section 337 only in 1988 amendments to
the law, a half-century later. See Omnibus Trade and
Competitiveness Act sec. 1342(a)(1), § 337(a)(1)(B)(i), 102
Stat. at 1212.

16
In allowing itself to charge non-importers with patent
infringement over articles that infringe no patents, the
ITC ignored Congress’s extensive cabining of the agency
to trade matters. The Court of Appeals did not question
this, instead giving the agency discretion under Chevron
U.S.A., Inc. v. Natural Resources Defense Council, Inc.,
467 U.S. 837 (1984). See Pet. App. 12–15a. While not citing
Chevron by name, the opinion relies on Suprema, Inc. v.
International Trade Commission, which approved an
ITC exclusion order against scanner devices that infringed a patent only after the importer added software
to them in the United States. See 796 F.3d 1338, 1341–
42 (Fed. Cir. 2015) (en banc). The agency held that “articles that infringe” included goods that are noninfringing at the time of importation, but are “used by an importer to directly infringe post-importation as a result of
the seller’s inducement.” Id. at 1352–53. In a closely divided opinion, the Federal Circuit en banc found that “articles that infringe” in section 337 is ambiguous and, applying Chevron deference, upheld the ITC’s interpretation as reasonable. Suprema, 796 F.3d at 1349, 1353.
The most troubling aspect of Suprema is its contention that the ITC’s interpretation is reasonable precisely because it expands the agency’s authority. See
id. at 1350. Citing portions of the legislative history, the
court found that “the Commission’s interpretation is consistent with Congress’ longstanding, broad policy.” Id. at
1351. But nothing in the legislative history cited by the
court shows any intention from Congress that section 337
could be used as a remedy for domestic acts of infringement. Cf. S. Rep. No. 67-595, supra, at 3 (describing
section 337 as “relating to unfair methods of competition
in the importation of goods” (emphasis added)).

17
Suprema and the current case thus place sharp focus
on the question considered in City of Arlington v. Federal Communications Commission, 569 U.S. 290 (2013).
There, a divided majority of the Court held that agencies such as the FCC received Chevron deference even
for interpretations of “jurisdictional” statutory language
defining the agency’s powers. City of Arlington, 569 U.S.
at 307. In dissent, Chief Justice Roberts, joined by Justices Thomas and Alito, warned that before assuming
that Chevron applies, courts must first assess whether
Congress has in fact delegated interpretive authority
to the agency. See City of Arlington, 569 U.S. at 312
(Roberts, C.J., dissenting). Justice Breyer, concurring in
the judgment, similarly agreed that courts “will have
to decide independently whether Congress delegated authority to the agency to provide interpretations of . . . the
statute at issue.” Id. at 308 (Breyer, J., concurring).
The present case is City of Arlington taken to its extremity. While that case dealt with a relatively minor
element of the FCC’s authority (a rulemaking on deadlines), see id. at 294–95, the ITC’s interpretations here
are existential—what, for an agency premised on dealing
with importation of patent-infringing articles, “importer”
and “articles that infringe” mean. The statutory terminology in City of Arlington was plainly ambiguous (“reasonable period of time”), see id. at 295, but the terms being
interpreted here have longstanding and fixed meanings
in the law. See Cunard S.S. Co. v. Mellon, 262 U.S. 100,
122 (1923); U.S. Tariff Comm’n, Dictionary of Tariff Information 406 (1924). And the ITC’s interpretations are
unorthodox at best: “Importer” encompasses one who imports nothing and “articles that infringe” encompasses articles that do not infringe any patent.

18
To be sure, City of Arlington itself need not be revisited in this case; it is straightforward to hold that
section 337 is unambiguous under the step one test of
Chevron. See City of Arlington, 569 U.S. at 296 (quoting
Chevron, 467 U.S. at 842–43). But the similarity to this
Court’s seminal case on agency discretion highlights how
the expansiveness of the ITC’s statutory interpretation
raises an important question: how far an agency may go
in interpreting its own statutory authority.
C.

LEFT UNREVIEWED, THE ITC’S ENLARGED
AUTHORITY WILL BE A ROADMAP FOR OTHER
AGENCY ENHANCEMENT OF POWER

The constitutional and administrative law questions
ought to be addressed immediately in this case, because
to do otherwise would leave unchecked the continued and
accelerating expansion of power at both the ITC specifically and administrative agencies generally.
Though the decisions in the present case are a dramatic expansion of the ITC’s authority, they are only one
such expansion out of many. In the last few decades, the
ITC has repeatedly weakened the various trade-based
elements of section 337, such as the domestic industry
and public interest elements that promote the ITC’s role
as a trade agency protecting American industries. See
Kumar, supra, at 548–51. The agency’s budget justification reports also reflect a shift away from trade: In earlier reports, the agency described its activities under
section 337 as investigating “unfair acts in the importation of articles,” reflecting the language of the statute,
but they now refer to “unfair acts involving imported
articles”—words seemingly calculated to encompass domestic patent disputes with tenuous or no connections to

19
international trade. Compare U.S. Int’l Trade Comm’n,
Budget Justification, Fiscal Year 2012, at 19 (2011), available online, with U.S. Int’l Trade Comm’n, Budget Justification, Fiscal Year 2021, at 28 (2020), available online.
Just six years ago, the ITC made another unabashed attempt to expand its jurisdictional reach. In
ClearCorrect Operating, LLC v. International Trade
Commission, the ITC interpreted section 337 to give
the agency authority over digital data transmissions, on
the theory that downloading a file on the Internet constituted “importation” of “articles that infringe.” See 810
F.3d 1283, 1290 (Fed. Cir. 2015). The overreach was so
untenable that the Federal Circuit in fact reversed under Chevron, finding both the statute unambiguous and
the ITC’s interpretation arbitrary and capricious. See
ClearCorrect, 810 F.3d at 1290, 1300.
It is telling that, in its ClearCorrect brief, the ITC
justified broad jurisdictional authority by misquoting the
Senate report on section 337—the agency omitted without ellipses the phrase “in the importation of goods” to
suggest wrongly that its authority spanned “every type
and form of unfair practice” without limitation. Id. at 1301
(quoting S. Rep. No. 67-595, supra, at 3). Though there is
no reason to believe that this “highly misleading” error
was intentional, id., the fact that the ITC was so inattentive as to its own statutory ambit indicates the agency’s
drive to take on a larger scope of authority than Congress
authorized.
Yet rather than investigate the ITC for overreach,
Congress apparently hopes to institute even more administrative forums for adjudication of disputes traditionally
heard in Article III courts. The House of Representatives recently passed a bill that would create a copyright

20
small claims board housed not in the federal judiciary but
within the U.S. Copyright Office, which is not even an executive agency but a legislative one. See Copyright Alternative in Small-Claims Enforcement Act of 2019, H.R.
2426, 116th Cong. sec. 2(a), § 1502(a) (as passed by House
of Representatives, Oct. 22, 2019). This Article I “court”
would have power to adjudicate intellectual property disputes, bring any person before it, and award damages between private parties. See id. sec. 2(a), § 1503(a)(1).4 Many
commentators have noted the failure of this legislation to
address Article III separation of powers. See, e.g., Pamela
Samuelson & Kathryn Hashimoto, Scholarly Concerns
About a Proposed Copyright Small Claims Tribunal, 33
Berkeley Tech. L.J. 689, 692–93 (2019); Anthony Marcum,
Potential Pitfalls of the CASE Act, R Street (July 16,
2019). Nevertheless, Congress appears bent on ignoring
those concerns and plowing ahead with the legislation.
At a time when the federal bureaucracy “now wields
vast power and touches almost every aspect of daily life,”
Free Enter. Fund v. Pub. Co. Accounting Oversight Bd.,
561 U.S. 477, 499 (2010), it is up to this Court to set limits on how far administrative agencies may go. The ITC’s
actions in this case present a striking vehicle to consider
questions of exceptional importance to the fabric of American constitutional republicanism.

4

Indeed, the ITC is substantially more problematic than this proposed copyright infringement tribunal: While the CASE Act at least
enables a defendant to affirmatively opt out and demand a judicial
proceeding, see id. sec. 2(a), § 1506(i), the defending party in the ITC
has no such option.

CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.

Respectfully submitted,
CHARLES DUAN
Counsel of Record
K. WILLIAM WATSON
R STREET INSTITUTE
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
J. SCOTT MCKAIG
LINCOLN NETWORK
44 Tehama St
San Francisco, CA 94105
Counsel for amici curiae
April 2020

21

Rev. 246bca21

